                                                                             Report No. DODIG-2014-061


              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              APRIL 14, 2014




                     Defense Hotline Allegations
                     Concerning the Fort Huachuca,
                     Army Contracting Command–
                     Aberdeen Proving Ground
                     Contract Administration and
                     Oversight Functions




I n t e g r I t y  e f f I c I e n c y  a c c o u n ta b I l I t y  e x c e l l e n c e
         I n t e g r I t y  e f f I c I e n c y  a c c o u n ta b I l I t y  e x c e l l e n c e




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Defense Hotline Allegations Concerning Fort Huachuca,
                                       Army Contracting Command–Aberdeen Proving Ground
                                       Contract Administration and Oversight Functions


April 14, 2014                                          Findings Continued

Objective                                               This occurred because contracting officials used one contract
                                                        modification to fund multiple work assignment orders
Our objective was to review the adequacy                (WAOs) and did not identify which WAOs were funded in the
of cost-control procedures and contract                 modification; misinterpreted the Army Contracting Command
administration for cost-plus-award-fee contract         Pamphlet 70-1 and did not designate or train work assignment
W91RUS-10-C-0001 used at Fort Huachuca,                 order authors and test officers as alternate contracting
Army Contracting Command–Aberdeen Proving               officer’s representatives, as required. In addition, contracting
Ground. In addition, the audit addresses three          officials were unaware of the Army Federal Acquisition Regulation
allegations concerning administration of the            Supplement requirements regarding contractor performance
contract raised to the Defense Hotline.                 criteria and used conflicting wording in the award-fee plan.


Findings                                                As a result, Fort Huachuca contracting officials may have
                                                        overpaid for contract cost increases.  Furthermore, we
Fort     Huachuca,     Army       Contracting           determined that one of the three Defense Hotline allegations
Command–Aberdeen Proving Ground officials               was partially substantiated.  This allegation was addressed
could improve the administration and                    during the audit. The other two allegations were unsubstantiated.
oversight of cost-plus-award-fee contract
W91RUS-10-C-0001, with a total estimated                We issued a quick reaction memorandum on January 16, 2014,
value    of    $286,541,416.       Specifically,        based on concerns regarding the contract administration
Fort Huachuca, contracting officials did not:           for contract W91RUS-10-C-0001.  Fort Huachuca officials
                                                        responded to the memorandum on February 5, 2014, with
  • include     adequate    documentation               acceptable corrective actions for the follow-on contract to
    to    support   incremental   funding               provide an audit trail from contract modifications to WAOs;
    modifications within the contract file;             properly authorize and train test officers; update the quality
  • properly authorize contract oversight or            assurance surveillance plan; and revise the award-fee plan.
    update the quality assurance surveillance           Therefore, we are not making any recommendations.
    plan; or

  • evaluate    contractor performance                  Management Comments
    with standards that were compliant                  We do not require a written response to this report.
    with the Army Federal Acquisition                   We provided a discussion draft to Fort Huachuca,
    Regulation Supplement.                              Army Contracting Command–Aberdeen Proving Ground officials.




Visit us on the web at www.dodig.mil


                                                                   Report No. DODIG-2014-061 (Project No. D2013-D000CG-0187.000) │ i
                   Recommendations Table
                                        Management                     Recommendations Requiring Comment
                    auditor general, Department of the army          none




ii │ Report No. DODIG-2014-061 (Project No. D2013-D000CG-0187.000)
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1500


                                                                                    April 14, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Defense Hotline Allegations Concerning the Fort Huachuca, Army
         Contracting Command–Aberdeen Proving Ground Contract Administration
         and Oversight Functions (Report No. DODIG-2014-061)

We are providing this report for your information and use. The DoD Office of the Inspector
General initiated this audit because of allegations made to the Defense Hotline regarding the
administration and oversight of contract W91RUS-10-C-0001.

Fort Huachuca, Army Contracting Command–Aberdeen Proving Ground officials could improve
the administration and oversight of contract W91RUS-10-C-0001. Specifically, Fort Huachuca,
Army Contracting Command–Aberdeen Proving Ground officials did not include adequate
documentation to support incremental funding contract modifications within the contract file;
did not properly authorize contract oversight or update the quality assurance surveillance plan;
and did not evaluate contractor performance with standards that were compliant with the
Army Federal Acquisition Regulation Supplement.  We issued a quick reaction memorandum
that addressed these concerns for the follow-on contract. Fort Huachuca, Army Contracting
Command–Aberdeen Proving Ground officials described corrective actions taken in response to
the memorandum and we agree with the corrective actions taken.

One of the three allegations was partially substantiated and addressed during the course of the
audit. The other two allegations were unsubstantiated.  We are publishing this report in final
form because no written response to this report is required.

We appreciate the courtesies extended to the staff. Please direct questions to Deborah Culp at
(703) 604-9335 (DSN 664-9335).




	                                           Amy J. Frontz
                                            Principal Assistant Inspector General
                                               for Auditing




                                                                                    Report No. DODIG-2014-061 │ iii
                  Contents
                  Introduction
                  Objective _________________________________________________________________________________________1
                  Background ______________________________________________________________________________________1
                  Review of Internal Controls ____________________________________________________________________2

                  Finding A. Improved Contract Administration and
                  Oversight Needed___________________________________________________________________3
                  Contract Modifications Not Supported ________________________________________________________3
                  Unauthorized Contract Oversight _____________________________________________________________5
                  Performance Standards Noncompliant With AFARS _________________________________________6
                  Corrective Actions ______________________________________________________________________________8
                  Summary ________________________________________________________________________________________8

                  Finding B. Defense Hotline Contract Administration
                  Allegations and Responses ___________________________________________________9
                  Allegation 1. Contract Ceiling Exceeded Without Supporting Documentation ____________9
                  Allegation 2. Contract Modifications Issued Outside Contract Scope ____________________ 10
                  Allegation 3. Contract Administered as a Different Type Than Awarded ________________ 11

                  Appendixes
                  Appendix A. Scope and Methodology ______________________________________________________ 12
                            Review of Documentation and Interviews ________________________________________ 12
                            Use of Computer-Processed Data __________________________________________________ 13
                            Use of Technical Assistance _________________________________________________________ 13
                            Prior Coverage________________________________________________________________________ 13
                  Appendix B. Quick Reaction Memorandum and Management Comments _______________ 14

                  Acronyms and Abbreviations _____________________________________________ 21




iv │ Report No. DODIG-2014-061
                                                                                                                         Introduction




Introduction
Objective
Our objective was to review the adequacy of cost-control procedures and contract
administration for cost-plus-award-fee contract W91RUS-10-C-0001, including all
contract modifications, used at Fort Huachuca, Army Contracting Command–Aberdeen
Proving Ground.1           In addition, the audit addresses three allegations raised to the
Defense Hotline. See Appendix A for the scope and methodology and prior audit
coverage related to the objective.


Background
Information Technology, E-Commerce and Commercial Center West2 contracting
officials awarded contract W91RUS-10-C-0001 on November 9, 2009, with a total
estimated value of $286,541,416, for scientific and engineering support; research
and development efforts; operation and maintenance of equipment, systems, and
facilities; and administrative services in support of Electronic Proving Ground’s
mission.  The contract includes a base year and 4 option years ending
November 15, 2014.               The contractor is performing under option year 4 of the
contract and as of March 12, 2014, Fort Huachuca contracting officials have funded
about $262,920,170 to the contract.                      Contracting officials awarded the contract
as a cost-plus-award-fee contract with an award fee established in the award-fee
plan which identifies the evaluation criteria. The goal of award fee contracting is
to motivate the contractor’s performance in areas that are susceptible to
measurement and evaluation.


Work Assignment Orders
Fort Huachuca contracting officials stated in the contract that the contractor must
perform functions as tasked by the Government in a work assignment order (WAO),
which will contain the anticipated period of performance, the scope of work, and
any applicable specifications, designs and drawings, data requirements, and
government furnished property. According to the contract, the contractor must not
perform any work under the WAO until the contracting officer approves the WAO
at which time the WAO is officially assigned to the contractor. Contracting officials
issued a total of 1,246 WAOs as of March 13, 2014.

1
    We refer to Fort Huachuca, Army Contracting Command–Aberdeen Proving Ground as Fort Huachuca contracting officials
    throughout the remainder of the report.
2
    The contract is now maintained by Fort Huachuca, Army Contracting Command–Aberdeen Proving Ground.




                                                                                                            Report No. DODIG-2014-061 │ 1
Introduction



                  Fort Huachuca contracting officials defined WAO authors as quality assurance
                  evaluators with responsibility for oversight of specific technical work on the contract
                  in the quality assurance surveillance plan (QASP) for contract W91RUS-10-C-0001,
                  dated April 30, 2008.  Federal Acquisition Regulation (FAR) Subpart 46.4, “Government
                  Contract Quality Assurance,” states that a QASP should specify all work requiring
                  surveillance and the method of surveillance.  Contracting officials explained that
                  the WAO authors prepare the WAOs, documenting the description of work to be
                  performed by the contractor, deliverables and basic technical execution plan, contractor
                  evaluations, and spend plans.  In addition, WAO authors provide direct oversight of
                  the contractor’s performance on the work established in the WAO, using criteria
                  such as management effectiveness, technical performance, quality of work,
                  timeliness, and cost control. The WAO authors fill out monthly reports identifying
                  the strengths and weaknesses of the contractor’s performance and provided the
                  reports to the contracting officer’s representative (COR) for the 6-month,
                  award-fee determination.


                  Review of Internal Controls
                  DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
                  May 30, 2013, requires DoD organizations to implement a comprehensive system of
                  internal controls that provides reasonable assurance that programs are operating
                  as intended and to evaluate the effectiveness of the controls. We identified internal
                  control weaknesses related to tracing the individual WAOs to the contract funding
                  modifications, an outdated quality assurance surveillance plan, and unauthorized
                  personnel performing contract oversight.     We will not make recommendations in
                  relation to the internal control weaknesses because of corrective actions planned for
                  the follow-on contract.

                  We will provide a copy of the report to the senior official responsible for
                  internal controls at Fort Huachuca, Army Contracting Command (ACC)–Aberdeen
                  Proving Ground.




2 │ Report No. DODIG-2014-061
                                                                                                      Finding A




Finding A
Improved Contract Administration and
Oversight Needed
Fort Huachuca contracting officials could improve the administration and oversight
of cost-plus-award-fee contract W91RUS-10-C-0001, with a total estimated value
of $286,541,416. Specifically, contracting officials did not:

         • include adequate documentation to support incremental funding contract
             modifications within the contract file;

         • properly authorize contract oversight or update the QASP; or

         • evaluate contractor performance with standards that were compliant
             with the Army Federal Acquisition Regulation Supplement (AFARS).

This occurred because contracting officials used one contract modification to fund
multiple WAOs and did not identify which WAOs were funded in the modification.
In addition, contracting officials misinterpreted ACC Pamphlet 70-1, “Interim
Army Contracting Command–Contracting Officer’s Representative Policy Guide,”
March 26, 2010, which was issued after contract award, and did not include
appointment letters designating WAO authors and test officers as CORs or alternate
CORs permitted to conduct oversight.          Contracting officials did not provide COR
training to the WAO authors and test officers authorizing them to conduct
oversight.    Furthermore,    contracting    officials   were   unaware   of   the     AFARS
requirements regarding contractor performance criteria and used conflicting
wording in the award-fee plan.

As a result, Fort Huachuca contracting officials may have overpaid for contract
cost increases.



Contract Modifications Not Supported
Fort Huachuca contracting officials did not include adequate documentation to
support incremental funding contract modifications within the contract file.
Contracting officials issued 73 modifications on contract W91RUS-10-C-0001 as of
March 12, 2014.       However, contracting officials could not trace funds from the
contract modifications to specific WAOs.




                                                                                     Report No. DODIG-2014-061 │ 3
Finding A



                  Inadequate Audit Trail
                  Fort Huachuca contracting officials lacked documentation to trace in SharePoint the
                  work that was performed on each individual WAO to the 73 contract modifications
                  in the Army Paperless Contract File.          According to FAR Subpart 4.8, “Government
                  Contract      Files,”   “the   head   of   each   office   performing   contracting,   contract
                  administration, or paying functions shall establish a contract file containing the
                  records of all contractual actions. The documentation in the files shall be sufficient
                  to constitute a complete history of the transaction.” Contracting officials stored the
                  WAOs in a SharePoint web-based application, which documented the work to be
                  performed on the contract.            In addition, contracting officials used OpenBook, a
                  financial data storage system, to track the funding of each WAO.  However,
                  contracting officials could not provide an adequate audit trail that linked the
                  individual WAOs from the SharePoint application to the contract modifications.

                  According to Fort Huachuca contracting officials, the contract was incrementally
                  funded with overhead funds equal to or greater than the total allocation of funds in
                  OpenBook for all active WAOs. Contracting officials transferred overhead funds with
                  the customer-reimbursable funds received. Contracting officials used the recouped
                  overhead funding to incrementally fund future requirements.  By obligating funds
                  using one contract line item number (CLIN) for multiple WAOs, contracting officials
                  could not trace funds from the contract modifications to specific WAOs.


                  Follow-On Contract
                  Fort Huachuca contracting officials are in the process of awarding a follow-on
                  hybrid contract.  Contracting officials anticipate awarding the hybrid contract as
                  firm-fixed-price for the overhead portion of the contract and cost-plus-award-fee
                  for the testing portion of the contract.  According to contracting officials, services
                  that are firm-fixed priced will have a separate CLIN.  Contracting officials plan to
                  list the WAOs as firm-fixed-price in the description section of the CLIN.              Because
                  cost-reimbursement CLINs are not tied directly to a single or a set number of
                  WAOs, the contracting officials plan to document the WAOs issued in Section J of the
                  contract by number and title, either at time of contract award or when incremental
                  funding modifications are executed.  Contracting officials’ proposed changes to
                  the follow-on contract should result in an adequate audit trail, tracing the contract
                  modifications to the WAOs. Therefore, we are not making a recommendation.




4 │ Report No. DODIG-2014-061
                                                                                                                   Finding A



Unauthorized Contract Oversight
Fort Huachuca contracting officials did not properly authorize oversight, and
did    not   update      the    QASP.      Specifically,   contracting       officials   misinterpreted
ACC Pamphlet 70-1 and did not designate WAO authors and test officers as
individuals permitted to conduct oversight.                In addition, contracting officials did
not provide COR training to the WAO authors and test officers authorizing them to
conduct oversight, as required.  Contracting officials designated the contract
oversight through a single COR designation letter in the contract file.  However, the
WAO authors and test officers performed the contract oversight.


Interpretation of ACC Pamphlet 70-1
Fort Huachuca contracting officials misinterpreted ACC Pamphlet 70-1, resulting
in unauthorized contract oversight.              According to ACC Headquarters contracting
officials, the Pamphlet prohibits the use of the term “contracting officer’s technical
representative” when referring to individuals conducting oversight, instead using
the term COR or alternate COR. Fort Huachuca contracting officials interpreted the
Pamphlet     as   prohibiting       the    assignment        of   contracting       officer’s     technical
representatives as opposed to prohibiting just the use of the term.                             Because of
Fort Huachuca contracting officials interpretation of the Pamphlet that authorization
of additional oversight beyond a COR was no longer allowed, they did not provide
training to the test officers and WAO authors as CORs or alternate CORs.                                 In
addition, FAR Subpart 1.6 “Career Development, Contracting Authority, and
Responsibilities” explains that a COR must be designated in writing specifying the
extent of the COR’s authority and that the authority is not re-delegable.
Contracting officials did not document COR or alternate COR appointment letters
in the contract file.           As a result, WAO authors and test officers were not
officially authorized to conduct contract oversight.

In    addition,   Fort    Huachuca        contracting      officials   did    not    provide       training
certifications to show that the WAO authors and test officers were properly trained
to conduct oversight.          According to FAR subpart 1.6, a COR must be qualified by
a combination of training, experience, and education.  ACC Pamphlet 70-1 states
CORs must complete specific training requirements before the contracting officer
can issue a letter of appointment.              However, contracting officials explained that
WAO authors and test officers were considered contracting officer’s technical
representatives, thus, exempt from the training requirements required in ACC
Pamphlet 70-1.        The WAO authors and test officers provided direct oversight of




                                                                                                  Report No. DODIG-2014-061 │ 5
Finding A



                  the contractor and sent the information to the single-assigned COR.  According
                  to contracting officials, the COR is still designated and responsible for direct
                  contract oversight.

                  Fort Huachuca contracting officials stated that they will appoint test officers as technical
                  monitors to provide contract oversight and document their training and certifications
                  in the contract file for the follow-on contract. Army Regulation 70-13, “Management
                  and Oversight of Service Acquisitions,” 30 July 2010, states that the contracting
                  officer may appoint other surveillance support personnel to assist the COR in
                  monitoring a contractor’s performance. These individuals may be called government
                  technical monitors. According to ACC-APG COR Handbook, August 2011, technical
                  monitors are required to complete COR training requirements before appointment.
                  Fort Huachuca contracting officials confirmed they will appoint technical monitors
                  in accordance with AR 70-13 and require completion of specific COR training
                  requirements before appointment, therefore, we are not making a recommendation.


                  QASP Not Updated to Reflect Oversight Responsibilities
                  Fort Huachuca contracting officials did not update the QASP for contract
                  W91RUS-10-C-0001 to reflect the changes outlined in ACC Pamphlet 70-1. According
                  to contracting officials, the QASP documents the Government’s plan to monitor
                  the contractor’s work to ensure the contractor performs within acceptable quality
                  levels, and the Government receives the quality of services and products required
                  in the contract.      While WAO authors and test officers were identified as quality
                  assurance evaluators in the QASP, they assumed the responsibilities of a COR
                  without proper training, providing direct oversight of the contractor. According to
                  contracting officials, the QASP has not been updated since 2008.            Fort Huachuca
                  contracting officials updated the QASP for the future follow-on contract; therefore,
                  we are not making a recommendation in relation to the QASP.


                  Performance Standards Noncompliant With AFARS
                  Fort Huachuca contracting officials increased the performance standards to
                  evaluate contractor performance, conflicting with the contract’s award-fee plan and
                  AFARS 5116.405-2, “Cost-plus-award-fee contracts,” definition of a “satisfactory”
                  rating. Specifically, contracting officials used an award-fee-earned chart that did not
                  adequately reflect the scoring definitions included in the award-fee plan, and
                  allowed the contractor to earn award fees for performance defined as meeting
                  basic contract requirements.




6 │ Report No. DODIG-2014-061
                                                                                                                                   Finding A



Fort Huachuca contracting officials used an award-fee-earned chart that did not
adequately reflect the scoring definitions in the award-fee plan.                                          According to
AFARS 5116.405-2, contractors should not receive award fees (above the base fee)
for simply meeting contract requirements.                             Contracting officials properly defined
“satisfactory” in the award-fee plan as “the contractor has met the basic (minimum
essential) requirements of the contract,” and stated that no award fee would be
provided for satisfactory performance. However, to improve contractor performance
contracting officials developed an award-fee-earned-chart that raised the numerical
scoring for the rating definitions included in the award-fee plan.  In particular,
contracting officials raised the numerical scoring for “satisfactory” performance and
they considered the contractor eligible for award fee if scoring fell within this
elevated range.             However, contracting officials did not update the corresponding
standards in the award-fee plan.                      As a result, contracting officials paid award fee
for performance described in the award fee earned chart as “satisfactory,” which
remained defined in the award-fee plan as the contractor met the basic requirements
of the contract. This was inconsistent with AFARS 5116.405-2.  Table 1 shows the
increased standards and scoring ranges to evaluate contractor performance.

Table 1. Award-Fee Plan Versus Award-Fee-Earned Chart
                       Award-Fee Plan                                          Award-Fee-Earned Chart
           excellent                       91-100                      Outstanding                       96-100
          Very good                         76-90                        excellent                        91-95
             good*                          51-75                          good                           81-90
          Satisfactory                       1-50                      Satisfactory*                      66-80
        Unsatisfactory                         0                      Unsatisfactory                      0-65
    * Rating level at which contractor became eligible for award fee.


Contracting officials stated that they were unaware of the AFARS guidance on
satisfactory ratings.            While contracting officials were not compliant with AFARS in
developing the award fee earned chart, they properly justified and documented all
award fees paid to the contractor.3  Fort Huachuca contracting officials revised
the satisfactory ratings in the award fee earned chart and corresponding
standards in the award-fee plan to comply with the AFARS for the follow-on
contract.  Furthermore, contracting officials included a reference to AFARS 5116.405-
2(b)(B) in the Request for Proposal, stating that no award fee would be made


3
      We did not question the award fees paid because they were earned based on numerical scores that exceeded the satisfactory
      level established in the award fee plan.




                                                                                                                  Report No. DODIG-2014-061 │ 7
Finding A



                  for satisfactory performance for the follow-on contract.  Therefore, we are not
                  making a recommendation in relation to the award-fee plan.


                  Corrective Actions
                  We issued a quick reaction memorandum on January 16, 2014, based on
                  concerns regarding the contract administration of cost-plus-award-fee contract
                  W91RUS-10-C-0001 to effect change for the future follow-on contract. Specifically,
                  Fort Huachuca contracting officials:

                                • did not include adequate documentation to support incremental
                                  funding contract modifications within the contract files;

                                • did not properly authorize contract oversight; and

                                • paid   three    award     fees    for   satisfactory    ratings    based   upon
                                  performance definitions that conflict with AFARS 5116.405-2.

                  Fort Huachuca contracting officials responded to the quick reaction memorandum
                  on February 5, 2014. They described corrective actions taken in response to the
                  memorandum which are discussed in the above Finding on pages 4, 5, and 6. We
                  agree with the corrective actions taken by Fort Huachuca contracting officials.
                  Therefore, we will not make any recommendations in this report. See Appendix B
                  for the quick reaction memorandum and Army responses.


                  Summary
                  Fort    Huachuca        contracting   officials   did   not   provide   adequate     contracting
                  administration and oversight for cost-plus-award-fee contract W91RUS-10-C-0001.
                  Contracting officials provided insufficient documentation to trace funds from
                  modifications to specific WAOs.           In addition, contracting officials misinterpreted
                  ACC Pamphlet 70-1 and did not include appointment letters designating WAO
                  authors and test officers as CORs or alternate CORs permitted to conduct
                  oversight.       Furthermore, contracting officials did not provide training authorizing
                  the WAO authors and test officers to conduct oversight.                     Contracting officials
                  were unaware of the AFARS requirements regarding satisfactory ratings and used
                  conflicting wording in the award-fee plan. As a result, Fort Huachuca contracting
                  officials may have overpaid for contract cost increases.                 However, contracting
                  officials took corrective actions to address contract administration and oversight
                  for the future follow-on contract.




8 │ Report No. DODIG-2014-061
                                                                                                     Finding B




Finding B
Defense Hotline Contract Administration Allegations
and Responses
We received a Defense Hotline request to review cost-plus-award-fee contract
W91RUS-10-C-0001. The Defense Hotline allegations included the following.

        • The contractor exceeded the contract ceiling and contracting officials did
            not include supporting documentation in the contract file demonstrating
            that ceiling increases were properly executed.

        • Fort Huachuca contracting officials issued modifications outside the
            scope of the contract.

        • Fort Huachuca contracting officials administered the contract as an
            indefinite-delivery, indefinite-quantity contract instead of a cost-plus-
            award-fee contract.

We determined that one of the three allegations was partially substantiated.  Fort
Huachuca contracting officials took corrective action during this audit; therefore,
we   will   not   make    recommendations     in   relation     to   the   Defense    Hotline
allegations.  The other two allegations were unsubstantiated.

The allegations are discussed below.



Allegation 1. Contract Ceiling Exceeded Without
Supporting Documentation
Fort Huachuca contracting officials exceeded the contract ceiling and did not
include supporting documentation in the contract file demonstrating that ceiling
increases were properly executed.


DoD IG Response
The allegation was partially substantiated.        Fort Huachuca contracting officials
exceeded the estimated value of the contract for the base year and 2 option years
and did not include documentation linking the funding increases to the WAOs.
However, the contract did not contain a not-to-exceed limit or ceiling as stated in
the allegation and did not exceed the total estimated contract value as of
March 12, 2014.



                                                                                     Report No. DODIG-2014-061│ 9
Finding B



                  Fort Huachuca contracting officials exceeded the estimated value of the contract
                  for the base year and 2 option years.  Contracting officials did not exceed the
                  estimated value in the third option year and stated that the contract would not
                  exceed the total estimated contract value at the end of option year 4. Contracting
                  officials did not include documentation linking the funding increases to the
                  WAOs as discussed in Finding A on page 3.  Table 2 shows the estimated
                  contract values and the funded amounts.


                  Table 2. Funded Amounts and Estimated Contract Values
                                                           Estimated Contract Value1   Funded Amount
                   Base Year                                            $53,678,031     $53,898,562
                   Option Year 1                                        57,828,529       72,356,795
                   Option Year 2                                        58,070,919       61,974,262
                   Option Year 3                                        58,325,154       49,453,551
                   Option Year 4                                        58,638,783      25,237,0002
                       Total                                        $286,541,416        $262,920,170
                   1    Estimated contract values from base contract.
                   2    Funded amount as of March 12, 2014.




                  Allegation 2. Contract Modifications Issued Outside
                  Contract Scope
                  Fort Huachuca contracting officials issued modifications outside the scope of
                  the contract.


                  DoD IG Response
                  The allegation was unsubstantiated.  Fort Huachuca contracting officials did not
                  issue modifications outside the scope of the contract because they issued the
                  majority of contract modifications to add or remove incremental funding.             In
                  addition, all WAOs reviewed were within the scope of the contract.  For example,
                  one WAO reviewed required support aspects associated with the successful test
                  design, plan, execution, and reporting for environmental testing on the Javelin Launch
                  Trainer. The WAO was within the scope of the contract, which included scientific
                  and engineering services support.  However, contracting officials could not show
                  a direct relationship between the funding modifications and the individual WAOs
                  leading to an inadequate audit trail as discussed in Finding A on page 3.




10 │ Report No. DODIG-2014-061
                                                                                                     Finding B



Allegation 3. Contract Administered as a Different Type
Than Awarded
Fort Huachuca contracting officials administered the contract as an indefinite-delivery
indefinite-quantity contract instead of a cost-plus-award-fee contract.


DoD IG Response
The allegation was unsubstantiated.  Fort Huachuca contracting officials issued
and administered the contract as a cost-plus-award-fee contract.  Contracting
officials established an award-fee plan providing an incentive for the contractor and
completed steps to review and pay the contractor appropriate award fees as
required for a cost-plus-award-fee contract.       We did not find any evidence that
contracting   officials   administered     the   contract   as   an       indefinite-delivery,
indefinite-quantity contract.

Fort Huachuca contracting officials adequately documented the approval of each
award fee.    We addressed a conflict with the award-fee scoring ranges and the
AFARS in Finding A on page 6.          Contracting officials followed an award-fee plan,
which outlined the organization of the award-fee board and process for making
an award-fee determination.  Contracting officials stated that the COR receives
comments from the WAO authors and prepares a monthly COR report for
submission to the award-fee review board.             The award chair meets with the
directors and the contracting officer to discuss the contractor’s performance over
the previous 6 months.          Directors give a score in the areas of evaluation with
an explanation of their rationale.       The scores are averaged in each section and
formalized in the award-fee determination.  The award-fee determining official
is responsible for reviewing and approving the award-fee score and signing
the determination letter for the evaluation period.




                                                                                    Report No. DODIG-2014-061│ 11
Appendixes




                  Appendix A
                  Scope and Methodology
                  We conducted this performance audit from June 2013 through April 2014 in
                  accordance        with   generally   accepted   government   auditing    standards.    Those
                  standards require that we plan and perform the audit to obtain sufficient,
                  appropriate evidence to provide a reasonable basis for our findings and
                  conclusions based on our audit objectives.  We believe that the evidence
                  obtained provides a reasonable basis for our findings and conclusions based on
                  our audit objectives.


                  Review of Documentation and Interviews
                  To evaluate whether Fort Huachuca contracting officials complied with appropriate
                  Federal and DoD criteria for contract administration and oversight, we reviewed
                  Federal Acquisition Regulation Subpart 1.6, “Career Development, Contracting
                  Authority, and Responsibilities”; Federal Acquisition Regulation Subpart 4.8,
                  “Government Contract Files”; Federal Acquisition Regulation Part 43, “Contract
                  Modifications”; Federal Acquisition Regulation Part 46, “Quality Assurance”; Army
                  Federal        Acquisition   Regulation   Supplement   5116.405-2,      “Cost-plus-award-fee
                  contracts”; and Army Contracting Command Pamphlet 70-1, “Interim Army
                  Contracting Command–Contracting Officer’s Representative Policy Guide.”

                  We reviewed allegations raised to the Defense Hotline concerning contract
                  W91RUS-10-C-0001 and reviewed the adequacy of cost-control procedures and
                  contract administration for cost-plus-award-fee contract W91RUS-10-C-0001.  As
                  of March 12, 2014, the contract was funded in the amount of $262,920,170. We
                  reviewed contract documentation and conducted interviews with contract officials
                  during our site visits to Fort Huachuca, Army Contracting Command–Aberdeen
                  Proving Ground. To assess the allegations, we interviewed the contracting officers,
                  contracting officer’s representative, award-fee board members, budget analysts,
                  and work assignment order authors. To validate the accuracy of the allegations, we
                  obtained and reviewed contract documentation from contracting officials at Fort
                  Huachuca, Army Contracting Command–Aberdeen Proving Ground, including the
                  base contract and 73 modifications issued as of March 12, 2014. In addition, we
                  received a demonstration of two databases; a WAO SharePoint web-based
                  application containing 1,246 WAOs as of March 13, 2014, and a financial data
                  storage system called OpenBook.           The documentation obtained included a sample




12 │ Report No. DODIG-2014-061
                                                                                              Appendixes



of work assignment orders, contract modifications for contract W91RUS-10-C-0001,
award-fee determinations, monthly contracting officer’s representative reports,
SharePoint application user guides, award-fee plans, quality assurance surveillance
plans, and follow-on contract documentation.


Use of Computer-Processed Data
We did not rely on computer-processed data to reach our conclusions.


Use of Technical Assistance
We did not use technical assistance in conducting this audit.


Prior Coverage
No prior coverage has been conducted on the subject during the last 5 years.




                                                                               Report No. DODIG-2014-061 │ 13
Appendixes




                  Appendix B
                  Quick Reaction Memorandum and
                  Management Comments




14 │ Report No. DODIG-2014-061
                                                          Appendixes



Quick Reaction Memorandum and Management
Comments (cont’d)




                                           Report No. DODIG-2014-061 │ 15
Appendixes



                  Quick Reaction Memorandum and Management
                  Comments (cont’d)




16 │ Report No. DODIG-2014-061
                                                          Appendixes



Quick Reaction Memorandum and Management
Comments (cont’d)




                                           Report No. DODIG-2014-061 │ 17
Appendixes



                  Quick Reaction Memorandum and Management
                  Comments (cont’d)




18 │ Report No. DODIG-2014-061
                                                          Appendixes



Quick Reaction Memorandum and Management
Comments (cont’d)




                                           Report No. DODIG-2014-061 │ 19
Appendixes



                  Quick Reaction Memorandum and Management
                  Comments (cont’d)




20 │ Report No. DODIG-2014-061
                                                       Acronyms and Abbreviations




Acronyms and Abbreviations
  ACC Army Contracting Command
AFARS Army Federal Acquisition Regulation Supplement
 CLIN Contract Line Item Number
  COR Contracting Officer’s Representative
  FAR Federal Acquisition Regulation
 QASP Quality Assurance Surveillance Plan
 WAO Work Assignment Order




                                                          Report No. DODIG-2014-061 │ 21
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                            DoD Hotline
                           dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
